i

QUESTION PRESENTED
Congress amended the American’s with
Disability Act in 2008 for the stated purpose of
expanding the scope of protection. To achieve this goal,
Congress redefined the definition of disability by
adding rules of construction rather than changing the
terms within the act. Per the amendment, a disability
is still defined as an impairment that substantially
limits a major life activity. Post amendment, “The
term ‘major’ shall not be interpreted strictly to create
a demanding standard for disability”. 29 C.F.R.
1630.2(h)(2). “Substantially limits is not meant to be a
demanding standard”. 29 C.F.R. 1630 (j)(i). “An
impairment need not prevent or significantly or
severely restrict the individual from performing a life
activity in order to be considered substantially
limiting”. 29 C.F.R. 1630.2(j)(ii).
In light of the amendment, the question presented is:
Whether the 2008 Amendment to the Americans
Disability Act extends the definition of disability to
permanent work restrictions precluding manual tasks.

ii

PARTIES TO THE PROCEEDING
Petitioner is the Plaintiff below, Michael Adam Booth.
Respondent is Nissan North America, Inc., the
Defendant below.

RULE 29.6 STATEMENT
Mr. Booth is an individual and is not a business entity,
government entity, has no parent corporations, nor
does he hold any publicly held corporation or own any
stock.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………….……….…. i
PARTIES TO THE PROCEEDINGS…….……...… ii
RULE 29.6 STATEMENT……………….…………... ii
TABLE OF CONTENTS………………….………….. iii
TABLE OF AUTHORITIES………….……………... vi
PETITION FOR WRIT OF
CERTIORARI TO SUPREME COURT….…...……… 1
OPINIONS BELOW………………….…………….…... 1
JURISDICTION………………………………..…….…. 1
RELEVENT STATUTORY PROVISIONS .....……... 2
STATEMENT OF THE CASE……………..…………. 5
A.
B.
C.
D.

Underlying Events…………………….…... 5
District Court Proceedings…….…….…… 6
The Appellate Proceedings……….….…… 7
Update…………………………….…….…… 8

REASONS FOR GRANTING THE PETITION …..….
9
Introduction………………………………………....…... 9

iv

I.

Congress used rules of
construction to remove
the stringent standards
and expand the definition
of disability ...……...……………………...11

II.

Congress rejected the
demanding standards in
Toyota thus including Work
Restrictions………………………….…… 19

III.

the stringent and limiting
standards in Sutton thus
demanding the analysis of
disability prior to any
ameliorative affects to
include accommodation……….…….…. 23

IV.

All precedent relied upon
by the Appellate Court relates
to and relies on the incorrect
standards outlined in Sutton
and Toyota…………………………….…... 27

V.

The major life activity of
“working” is not immune from
the new rules of construction…………... 31

CONCLUSION………………………………...……... 37
APPENDIX……………………………….…….……. A-1
Appendix Table of Contents……………….….. A-1

v

A. Sixth Circuit Court of Appeals
Opinion and Judgement (June 7,
2019)…………………………………….…... A 2
B. Order Denying Petition for Hearing
En Banc. (July 3,2019)….…….………...... A 21
C. District Court Opinion and Order
(August 17, 2018) ………….……………... A 22
D. Permanent work restrictions...……..…… A 35
E. Accommodation Approval ….........…...… A 38
F. Email re withdrawal of
Accommodations LaCroix ……….…….... A 40
G. Position statement to EEOC………….…. A 41

vi

TABLE OF AUTHORITIES
Cases
Allen v. SouthCrest Hosp., 455 F. App’x 827
(10th Cir. 2011………………………….……...……... 32
Carothers v. County of Cook,
808 F.3d 1140 (7th Cir. 2015)…………………... 32
Corley v. Dep't of Veterans Affairs
ex rel Principi, 218 F. App'x. 727
(10th Cir. 2007)………………………………………. 35
Daugherty v. Sajar Plastics, Inc.,
544 F.3d 696 (Sixth Cir.2008)……………….….…. 31
EEOC v. Abercrombie & Fitch Stores, Inc.,
135 S. Ct. 2028, 192 L. Ed. 2d 35 (2015)…….…. 7fn
Ferrari v. Ford Motor Co., 826 F.3d 885
(6th Cir. 2016)………………………….……8, 19, 30, 31
Mahon v. Crowell, 295 F.3d 585
(6th Cir. 2002)………………………...… 8, 28, 29
Mancini v. City of Providence, 909 F.3d 32
(1st Cir. 2018)…………………………………………... 32
McKay v. Toyota Motor Mfg., U.S.A., Inc.,
110 F.3d 369 (6th Cir. 1997)………...…………...… 7, 28
Olds v. United Parcel Serv., Inc.,
127 F. App'x. 779, 782 (6th Cir. 2005)…………… 35

vii

Roan v. UPS, 2019 U.S. Dist.
LEXIS 64253, 2019 WL 1596736.
(Middle District Tenn. 2019)…………………… 10
Sutton v. United Air Lines, 527 U.S. 471,
119 S. Ct. 2139, 144 L. Ed. 2d 450 (1999)

passim

Tinsley v. Caterpillar Fin. Servs., Corp.,
No. 18-5303, 2019 WL 1302189
(6th Cir. Mar. 20, 2019)………………...………... 32
Toyota Motor Mfg., Ky. v. Williams,
534 U.S. 184, 122 S. Ct. 681, 151 L. Ed. 2d 615
(2002)………….……………………………...
passim
Williams v. Philadelphia Hous. Auth.
Police Dep't,380 F.3d 751 (3d Cir. 2004)…………. 35

Statutes
ADA Amendments Act of 2008 (ADAAA).
42 U.S.C. 12102…………………………….………… 2
42 U.S.C. 132101(a)(2), (8)……………….………….11

Code of Federal Regulations
29 C.F.R 1630 et seq …………………………………. 4
29 C.F.R. 1630.1(c) ………………………………….. 35
29 C.F.R. 1630.2(h)(2) ……………………………….. 17

viii

29 C.F.R. 1630.2(i)(i) ………………………………….36
29 C.F.R. 1630.2(j)(i) …………………………16, 17, 32
29 C.F.R. 1630.2(j)(ii) ………………………………….17
29 C.F.R. 1630.2(j)(iii)………………………………… 23
29 C.F.R. 1630.2(j)(3)(i)
29 C.F.R. 1630.2(j)(6) ………………………………….25
EEOC Appendix to Code of Regulations
19 C.F.R. Introduction, App. ……………….…… 10, 21
29 C.F.R. 1630.1(c) ……………………….………… 17
29 C.F.R. 1630.2(i), App. …………………….… 22, 30
29 C.F.R. 1630.2(j)(1) App. …………………. 16, 33, 35
Hoyer-Sensenbrenner Congressional Record
154 Cong. Rec. 19430-19442 (2008) 9,11,12,13,14,15,
24.
By Representative Hoyer……………….… 18
By Representative Miller……..……………. 9
By Representative Nadler………..........12,13,14
By Representative Sensenbrenner….…….15
By Representative Stark………………..... 24

1

PETITION FOR WRIT OF CERTIORARI
Mr. Booth respectfully petitions this Court to
issue a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The disposition and court of appeals opinion (App. A)
entitled Michael Adam Booth Plaintiff-Appellant vs.
Nissan North America Inc., Defendant-Appellee, is
reported at 927 F.3d 387. The district court’s opinion
and order granting respondent’s motion for summary
judgment (App. C) is reported at 2018 U.S. Dist.
LEXIS 139882.
JURISDICTION
The judgment of the Sixth Circuit Court of Appeals
was entered on June 7, 2019. A Petition for rehearing
and hearing en banc was denied on July 3, 2019. (App.
B) The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).

2

RELEVANT STATUTORY PROVISIONS
ADA Amendments Act of 2008.
42 U.S.C.S. § 12102(2) Definition of Disability.
(1) Disability
The term “disability” means, with respect to an
individual—
(A) a physical or mental impairment that
substantially limits one or more major life
activities of such individual;
(B) a record of such an impairment; or
(C) being regarded as having such an impairment
(as described in paragraph (3)).
(2) Major life activities
(A) In general
For purposes of paragraph (1), major life
activities include, but are not limited to,
caring for oneself, performing manual tasks,
seeing, hearing, eating, sleeping, walking,
standing, lifting, bending, speaking,
breathing, learning, reading, concentrating,
thinking, communicating, and working.
(B) Major bodily functions
For purposes of paragraph (1), a major life activity
also includes the operation of a major bodily
function, including but not limited to, functions of
the immune system, normal cell growth, digestive,
bowel, bladder, neurological, brain, respiratory,
circulatory, endocrine, and reproductive functions.

3

(2) Regarded as having such an impairment
For purposes of paragraph (1)(C):
(A) An individual meets the requirement of
“being regarded as having such an
impairment” if the individual establishes that
he or she has been subjected to an action
prohibited under this chapter because of an
actual or perceived physical or mental
impairment whether or not the impairment
limits or is perceived to limit a major life
activity.
(B) Paragraph (1)(C) shall not apply to
impairments that are transitory and minor. A
transitory impairment is an impairment with
an actual or expected duration of 6 months or
less.
(4) Rules of construction regarding the definition of
disability. The definition of “disability” in paragraph
(1) shall be construed in accordance with the
following:
(A) The definition of disability in this chapter
shall be construed in favor of broad coverage
of individuals under this chapter, to the
maximum extent permitted by the terms of
this chapter.
(B) The term “substantially limits” shall be
interpreted consistently with the findings and
purposes of the ADA Amendments Act of
2008.
(C) An impairment that substantially limits
one major life activity need not limit other

4

major life activities in order to be considered a
disability.
(D) An impairment that is episodic or in
remission is a disability if it would
substantially limit a major life activity when
active.
(Pub. L. 101–336, § 3, July 26, 1990, 104 Stat. 329;
Pub. L. 110–325, § 4(a), Sept. 25, 2008, 122 Stat.
3555.)

29 C.F.R. 1630
“The term “major” shall not be interpreted strictly to
create a demanding standard for disability.” 29 C.F.R.
1630.2(h)(2).
“Substantially limits is not meant to be a demanding
standard”. 29 C.F.R. 1630 (j)(i).
“An impairment need not prevent or significantly or
severely restrict the individual from performing a life
activity in order to be considered substantially
limiting”. 29 C.F.R. 1630.2(j)(ii).
“The primary object of attention in cases brought
under the ADA should be whether covered entities
have complied with their obligations and whether
discrimination has occurred, not whether an
individual’s impairment substantially limits a major
life activity. Accordingly, the threshold issue of
whether an impairment “substantially limits a major
life activity should not demand extensive analysis”.
29 C.F.R. 1630.2(j)(iii).

5

STATEMENT OF THE CASE
A. UNDERLYING EVENTS
Mr. Booth builds cars for Nissan North
America. He sustained a work-related injury in 2004
resulting in a protruding disk in his neck. On
December 22, 2005, his doctor assigned permanent
work restrictions precluding repetitive neck flexion
and extension more than 33 percent of the time,
working more than 66 percent of the work day above
the shoulder, and working overhead more than sixty
six percent of the time. (Appendix D, pgs. A 35-37;
Appendix hereafter App.)
In 2014, Nissan accommodated Mr. Booth in a
two-job rotation in Zone 29 of left side regulator and
right side rear water shield because those positions
were within his restrictions. (App. E, pgs. A 38-39)
Mr. Booth mitigated his disability by accepting the
two-job rotation. Nissan approved the mitigation on
April 2, 2014 and December 9, 2015 and Mr. Booth
was able to continue working with these ameliorative
affects for thirteen years.(App. E, pgs. A 38-39)
Nissan management denied Mr. Booth
promotion to material handler because of his work
restrictions. Then they revoked the two-job rotation,
i.e., ameliorative effects of the accommodation.
Nissan told Booth his doctor must remove the
permanent work restrictions, or he would have no job.
(“We need to discuss some deadlines that he has to
meet as he is continuing to drag out his requirement
to meet with the Dr. We have continued to let him
work in his current pod, but we can’t continue to do

6

that if he doesn’t get his Perm Restrictions modified
to clear him for duty”. (App. F, pgs. A 40)1 Mr. Booth’s
doctor removed his restrictions thirteen years after
assigning them, on or about January 2018, so he
wouldn’t be fired. Because Mr. Booth succumbed to
the discrimination, he did not lose his job.
Mr. Booth filed a charge with the Equal
Employment Opportunity Commission (EEOC)
alleging disability discrimination when Nissan forced
him to remove work restrictions as a condition of
employment. A right to sue letter was issued on May
31, 2017. Mr. Booth filed his complaint alleging a
violation of the ADAAA for failure to promote because
of a disability in the form of work restrictions and
failure to accommodate a disability in the form of
work restrictions.

B. DISTRICT COURT PROCEEDINGS
On April 27, 2017, Mr. Booth filed a Complaint for
damages in the Middle District of Tennessee alleging
a violation of the ADAAA. Specifically, the Complaint
alleged Nissan failed to accommodate his disability
when they conditioned his job on its removal and
failed to promote him because of his disability. Nissan
filed a Motion for Summary Judgment alleging inter
alia Mr. Booth was not disabled, even though it was
Nissan required a condition of employment that is
discriminatory akin to a no headwear policy condition.
Both policies are discriminatory. EEOC v. Abercrombie
& Fitch Stores, Inc., 135 S. Ct. 2028, 192 L. Ed. 2d 35
(2015)
1

7

Nissan who said he could not work any job in the
plant with the restrictions. The Motion for Summary
Judgment was granted on August 17, 2018 because
the promotion was lateral, and Nissan’s demand to
remove a disability was not a discrimination. (App. C,
pgs. 22-34) In effect, if the discrimination is
successful, and one arbitrarily pretends they don’t
have a disability all is well.2 The District Court did
not address disability as an issue.
Turning to the Appellate Court, Mr. Booth
timely appealed the dismissal on September 14,
2018. Whether or not there was a disability, seemed
of little consequence when the District Court failed
to address the issue.
C. THE APPELLATE PROCEEDINGS.
On appeal Nissan argued no disability based solely
on pre-amendment ADA cases. On June 7, 2019, a
unanimous per curium panel of the Sixth Circuit
affirmed the District Court’s dismissal of all claims
because Mr. Booth was not disabled. (App. A, pgs. A220) The panel states, “Several of our published
decisions support Nissan’s position. We have held
that simply having a work restriction does not
automatically render one disabled”. (App. A, pg. A
14)They source pre-amendment cases of McKay v.
If claimant had agreed to reject her religion and forego the
hajib, she too would have been offered employment. EEOC v.
Abercrombie & Fitch Stores, Inc., 135 S. Ct. 2028, 192 L. Ed. 2d
35 (2015).
2

8

Toyota Motor Mfg., U.S.A., Inc., 110 F.3d 369, 373
(6th Cir. 1997); Mahon v. Crowell, 295 F.3d 585, 591
(6th Cir. 2002); and Ferrari v. Ford Motor Co., 826
F.3d 885, 893 (6th Cir. 2016) in holding, “Because
Booth has advanced no evidence of his disability
beyond his work restrictions, he cannot show that he
is disabled and has therefore failed to carry his
burden at summary judgment. We affirm the district
court's grant of summary judgment on that claim.”
(App. A, page A 17).
Booth petitioned the Sixth Circuit for a
rehearing en banc arguing all precedent was no longer
good law under the American with Disability Act,
Amendments Act of 2008. He also pointed out that
the EEOC interpretation of the Amendment included
work restrictions in multiple examples. The Petition
for rehearing was denied on July 3, 2019. (App. B,
page A 21)

D. UPDATE
Thirty-one days (31) days after the Sixth Circuit
eliminated work restrictions from ADA protection,
Nissan re-evaluated Mr. Booth’s work restrictions sua
sponte, called Mr. Booth into the office, and revoked
the accommodation.3

The rehearing was denied on July 3, 2019, Mr. Booth was
taken off the schedule on August 12, 2019.
3

9

REASON FOR GRANTING THE PETITION
Introduction
With a stroke of the pen, the Appellate Court
eliminated millions of disabled employees from the
Americans with Disability Act protection. (hereafter
ADA)
They did so in conflict with a bipartisan
mandate from Congress to expand coverage.
Removing workers from the workforce based upon
what they can’t do, rather than what they can do
creates an animus that costs Americans billions of
dollars.
Enter, the American Disability Act
Amendments Act of 2008.(Hereafter, ADAAA).
Per Congressman George Miller, S. 3406 or the
ADA Amendments Act of 2008, “reestablishes the
scope of protection of the American’s with Disabilities
Act to be generous and inclusive. The Bill restores the
proper focus on whether discrimination occurred
rather than on whether or not an individual’s
impairment qualifies as a disability.”154 Cong. Rec.
19432 (2008.) Per the Congressman:
Workers like Carey McClure, an
electrician with muscular dystrophy
who testified before our committee in
January, have not been hired or passed
over for promotion by an employer
regarding them as too disabled to do the
job. Yet when these workers seek justice
for this discrimination, the courts rule
that they are not disabled enough to be
protected by the American’s with
Disabilities Act. This is a terrible catch-

10

22 that Congress will change with the
passage of this bill today. Id.
The Supreme Court has not resolved the
definition of disability following the Amendment.
This issue demands the attention of the High Court,
because the Act has gone unnoticed by the Circuits
who continuously breathe life into cases Congress
rejected name in the Amendment.4 A published
judicial precedence that removes work restrictions
from ADAAA protection excuses Nissan and
thousands of other employers from accommodating
these restrictions; an excuse already ceased upon by
Nissan directly following the denial of the En Banc
hearing.
Indeed, Mr. Booth was immediately
terminated once the Sixth Circuit denied protection
in this very case. This creates a class of dependent,
non-productive adults just after a herculean effort by
both parties of Congress to expand the definition of
disability. Mr. Booth requests this Court issue a writ
of certiorari to correct and restore the broad
protection intended by the elected officials of both
parties of Congress.
In passing the ADA, Congress
recognized that ‘discrimination against
individuals with disabilities continues to
be a serious and pervasive social
problem’ and that the ‘continuing
As recently as this year, the Middle District of
Tennessee continues to cite Toyota. Roan v. UPS, 2019
U.S. Dist. LEXIS 64253, 2019 WL 1596736.
4

11

existence of unfair and unnecessary
discrimination and prejudice denies
people with disabilities the opportunity
to compete on an equal basis and to
pursue those opportunities for which our
free society is justifiably famous, and
costs the United States billions of dollars
in unnecessary expenses resulting from
dependency and nonproductivity. EEOC
introduction to Appendix; See also 42
U.S.C. 132101(a)(2), (8).
Mr. Booth supports his Petition for Writ of
Certiorari as follows: (1) Congress used rules of
construction to expand the definition of disability and
remove the demanding and stringent standards; (2)
Congress rejected the standards in Toyota thus
including work restrictions; (3) Disability coverage
must be made based upon the non-mitigated state of
the condition; (4) All precedent relied upon by the
Appellate Court rests squarely on the incorrect
standards outlined in Sutton and Toyota, and (5) The
major life activity of “working” is not immune from
the new rules of construction.5
/ / / /
/ / / /

Full citations: Toyota Motor Mfg., Ky. v. Williams, 534 U.S.
184, 122 S. Ct. 681, 151 L. Ed. 2d 615 (2002); Sutton v. United
Air Lines, 527 U.S. 471, 119 S. Ct. 2139, 144 L. Ed. 2d 450
(1999).
5

12

I. Congress used rules of construction to
remove demanding standards and
expand the definition of disability.
Everything was supposed to get better when
the ADAAA protection became effective on January 1,
2009.
At its core, this is a case of statutory
construction. Congress accomplished a reformation of
disability by amending the relevant provisions of the
ADA, clarifying details, providing rules of
construction, and providing examples that underscore
the broad applicability of the statute. “The purpose of
this legislation is to resolve the intent of Congress to
cover a broad group of individuals with disabilities
under the ADA and to eliminate the problem of courts
focusing too heavily on whether individuals are
covered by the law rather than on whether
discrimination occurred.” 154 Cong. Rec. 19430
(2008)(Statement of Representatives Nadler) The
amendment was passed because court decisions,
“have created a catch-22” where an individual can be
fired from a job or otherwise face discrimination on
the basis of an impairment, “and yet not be considered
sufficiently disabled to be protected by the ADA.
Congress never intended such an absurd result.” 154
Cong. Rec. 19433 (2008). Here, Nissan denied
employment because of a work restriction, “and yet
(Booth) is not considered sufficiently disabled to be
protected by the ADA”. This is an absurd result.
Per the Congressman Nadler:
The Court’s rulings currently exclude
millions of disabled Americans from the

13

ADA’s protection—the very citizens that
Congress expressly sought to include
within the scope of the Act in 1990. The
impact of these decisions is such that
disabled Americans can be discriminated
against by their employer because of their
conditions but are not considered disabled
enough by our Federal Courts to invoke
the protections of the ADA. This is
unacceptable. Today’s vote will enable
disabled American’s utilizing the ADA to
focus on discrimination that they have
experienced rather than having to first
prove that they fall within the ADA’s
protection. 154 Cong. Rec. 19433 (2008).

Per the Congressional Record, the intent of the
amendment was to restore the lower standard of the
Rehabilitation Act; i.e.
In most of these cases,[Rehabilitation
Act cases] defendants and the courts
simply accepted that a plaintiff was a
member of the protected class and
moved on to the merits of the case.
Congress expected and intended the
same thing when it passed the ADA in
1990, and we are again attempting to
make this crystal clear. As stated in S.
3406, the focus should be on whether
discrimination has occurred and ‘the
question of whether an individual’s

14

impairment is a disability under the
ADA should not demand extensive
analysis’. Under the lower standard for
qualifying as disabled, for example, an
individual who is disqualified from his or
her job of choice because of an
impairment should be considered
substantially limited in the major life
activity of working. Id.
Per Congressmen Nadler, “Our Nation simply cannot
afford to squander the talents and contributions of
our people based on antiquated misconceptions about
people with disabilities”. Id. at 19434. The ink wasn’t
even dry on the Sixth Circuit opinion, before Nissan
sent this model employee home without a paycheck.
When manager LaCroix needs restrictions lifted,
because he can’t keep accommodating Booth in the
two-job rotation, the discrimination question is why
not. (App. F, pg. A 40) Did Congress create a work
restriction exception to the mandate. The answer is
no. This exception is not supported by Congress.
Instead, the ADAAA limits the inquiry, “It is our
sincere hope that, with less battling over who is or is
not disabled, we will finally be able to focus on the
important questions—is an individual qualified? And
might a reasonable accommodation afford that person
the same opportunities that his or her neighbors
enjoy?” Id.
In the Congressional Record, many examples
were provided to interpret the statute. A diabetic is

15

accommodated with a special lunch break to control
his blood sugar. He is healthy and productive.
So, the man gets a new supervisor. The
new supervisor comes in and doesn’t
understand that need, doesn’t permit
the lunch break, and the man’s unable to
do his work. So, he files suit under the
ADA, and the court says he doesn’t win
the case because he is not disabled.
Diabetes is not enough of a disability to
remedy this person’s concern. Now
that’s just wrong.” 154 Cong. Rec. 19434
(2008) (Statement by Congressman
Andrews).
Congressman Sensenbrenner states, “[T]he impact of
these decisions (court rulings) is such that disabled
Americans can be discriminated against by their
employer because their conditions are not considered
disabled enough, by our Federal Courts to invoke the
protections of the ADA. This is unacceptable.” Id at
19434.
The EEOC prepared an Appendix at the
direction of Congress after studying and
incorporating the Congressional Record. Within the
38 pages, examples regularly identify work
restrictions as a covered disability. The ADA
Amendments Act of 2008 (ADAAA), Pub. L. No 110324, 122 Stat. 355342 U.S.C. 12102 and Appendix.
Per this Appendix, “This legislation is the product of
extensive bipartisan efforts, and the culmination of
collaboration and coordination between legislators

16

and stakeholders”. EEOC Appendix citing Statement
of Representatives Hoyer and Sensenbrenner, 154
Cong. Rec. H8294-96 (daily ed. Sept. 17, 2008)(HoyerSensenbrenner Congressional Record Statement).
Despite all this effort to remove demanding
standards, Mr. Booth finds his case rejected because
a permanent work restriction is not disabling enough.
Both pre-amendment and post-amendment
statutes define disability as a physical or mental
impairment that substantially limits one or more
major life activities of such individual. Congress
changed the rules of construction on the words,
“substantially” and “major”. Congress extensively
deliberated over whether a new term other than
“substantially limits” should be adopted to denote the
appropriate
functional
limitation
necessary.
Ultimately, Congress opted to retain these terms in
the Amendments Act, rather than replace them. It
concluded that “adopting a new, undefined term that
is subject to widely disparate meanings is not the best
way to achieve the goal of ensuring consistent and
appropriately broad coverage under this Act.” 29
C.F.R. 1630(2)(j)(i), App. Instead, Congress
determined “a better way to express its disapproval of
Sutton and Toyota is to retain the words
‘substantially limits,’ but clarify that is not meant to
be a demanding standard. To achieve that goal,
Congress set forth detailed findings and purposes and
“rules of construction to govern the interpretation and
application of this concept going forward.” 29 C.F.R.
1630.2(j)(1) App.
Likewise, the EEOC similarly considered
whether to provide a new definition of “substantially

17

limits” but concluded a new definition would
“inexorably lead to greater focus and intensity of
attention on the threshold issue of coverage than
intended by Congress”. (1630.2(j)(1). App.
Unmistakably,
The term “major” shall not be
interpreted strictly to create a
demanding standard for disability. 29
C.F.R. 1630.2(h)(2).
And
Substantially limits is not meant to be a
demanding standard. 29 C.F.R. 1630
(j)(i).
But the most important unambiguous instruction is,
An impairment need not prevent or
significantly or severely restrict the
individual from performing a life activity
in order to be considered substantially
limiting. 29 C.F.R. 1630.2(j)(ii).
Naturally, a work restriction is a disability under this
broadened definition. “Congress did not intend for
the threshold question of disability to be used as a
means of excluding individuals from coverage.”
(Legislative history regarding the basis of the
American with Disabilities Act, As Amended 2009;
House Judiciary Committee Report at 5. 1630, App.
Appendix to Part 1630—Interpretive Guidance on
Title I of the Americans With Disabilities Act. Link to

18

an amendment published at 81 FR 31140, May 17,
2016, hereafter App.) Per Congress, “The question of
whether an individual has a disability under this
part, ‘should not demand extensive analysis.’”
(ADAAA) section 2(b)(5). 29 C.F.R. 1630.1(c), App. See
also, House Education and Labor Committee Report
at 9 (“The Committee intends that the establishment
of coverage under the ADA should not be overly
complex nor difficult. * * *”). The legislative history
of the ADAAA is replete with references emphasizing
this principle. See Joint Hoyer-Sensenbrenner
Statement at 2 (warning that “the definition of
disability should not be unduly used as a tool for
excluding individuals from the ADA's protections”);
id. (this principle “sends a clear signal of our intent
that the courts must interpret the definition of
disability broadly rather than stringently”); 2008
House Judiciary Committee Report at 5.
Per Congressman Hoyer,
[W]hat so many courageous people with
a disability has shown us all, that a
disability is not disabling. It may rob us
of a single or maybe even multiple ways
that some people do things, but not all
things…One of the places we haven’t
made the progress we wanted to was
employment. So many people want to
work, want to be self-sufficient, want to
be enterprising, want to have the selfrespect of earning their own way but
have been shut out. And the Supreme
Court didn’t help us. That’s what this
bill is about.” 154 Cong. Rec. 19437

19

(2008)( Statement
Hoyer).

of

Congressman

Here, Mr. Booth was forced to lie about his disability,
have it artificially removed so that he too wouldn’t be
“shut out”. This is the essence of discrimination.
With little to no post amendment precedence,
the Appellate Court relied on pre-amendment cases
that were jettisoned by Congress. Specifically, the
reliance on Ferrari v. Ford Motor Co., 826 F.3d 885
(6th Cir. 2016) breathes life into Sutton and Toyota by
relying upon cases that can be traced directly back to
them and their pre-amendment standards.

II. Congress rejected the demanding
standards in Toyota thus including work
restrictions.
In Toyota Motor Mfg., Ky. v. Williams, 534 U.S.
184, 122 S. Ct. 681, 151 L. Ed. 2d 615 (2002), Ms.
Williams’s physician placed her on permanent work
restrictions that precluded her from lifting more than
20 pounds, frequently lifting or carrying objects
weighing up to 10 pounds, engaging in constant
repetitive flexion or extension of [her] wrists or
elbows, performing overhead work, or using vibratory
or pneumatic tools. Toyota, 534 U.S. 188. The District
Court granted Toyota summary judgment because
Ms. William’s claim that she was substantially
limited in performing manual tasks
was
"irretrievably contradicted by [William’s] continual
insistence that she could perform certain tasks in
assembly [paint] and paint [second] inspection

20

without difficulty. Id at 191.6 The Appellate Court
reversed the District Court’s finding on disability
because her ailments "prevented her from doing the
tasks associated with certain types of manual
assembly line jobs, manual product handling jobs and
manual building trade jobs (painting, plumbing,
roofing, etc.) that require the gripping of tools and
repetitive work with hands and arms extended at or
above shoulder levels for extended periods of
time." Ibid.
The Supreme Court overturned the Appellate
Court claiming, "repetitive work with hands and arms
extended at or above shoulder levels for extended
periods of time …is not an important part of most
people's daily lives” and therefore not a disability.
“The court, therefore, should not have considered
respondent's inability to do such manual work in her
specialized assembly line job as sufficient proof that
she was substantially limited in performing manual
tasks.” Id at 202. The Supreme Court held the terms
“substantially” and “major” in the definition of
disability “need to be interpreted strictly to create a
demanding standard for qualifying as disabled under
the ADA”, and that to be substantially limited in
performing a major life activity under the ADA, “an
individual must have an impairment that prevents or
severely restricts the individual from doing activities

Compare to amendment where “for example, an individual
who is disqualified from his job of choice … should be
considered substantially limited in the major life activity of
working”; directing the EEOC to rewrite, ‘the inability to
perform a single particular job is a “substantial enough
limitation”. 154 Cong. Rec. 19433
6

21

that are of central importance to most people’s daily
lives.”
Congress rejected the stringent Toyota requirement
in the ADAAA.
“[A]s a result of these Supreme Court
decisions, lower courts ruled in
numerous cases that individuals with a
range
of
substantially
limiting
impairments were not individuals with
disabilities, and thus not protected by
the ADA. After the Court’s decisions in
Sutton that impairments must be
considered in their mitigated state and
in Toyota that there must be a
demanding standard for qualifying as
disabled, lower courts more often found
that an individual’s impairment did not
constitute a disability. As a result, in too
many cases, courts would never reach
the question whether discrimination had
occurred. “ 29 C.F.R. 1630 Introduction ,
App.
Consequently, Congress amended the ADA
with the Americans with Disabilities Act
Amendments Act of 2008 with their intent on their
sleeve. The express purposes of the ADAAA are,
among other things….
(4) To reject the standards enunciated by
the Supreme Court in Toyota that the
terms “substantially” and “major” in the
definition of disability of the ADA, ‘need

22

to be interpreted strictly to create a
demanding standard for qualifying as
disabled,’ and that to be substantially
limited in performing a major life
activity under the ADA ‘an individual
must have an impairment that prevents
or severely restricts the individual from
doing activities that are of central
importance to most people’s daily lives’;
And,
5) To convey congressional intent that
the standard created by the Supreme
Court in Toyota for “substantially
limits,” and applied by lower courts in
numerous decisions has created an
inappropriately high level of limitation
necessary to obtain coverage under the
ADA:
Following the rejection of the Toyota standard, the
EEOC repeatedly uses work restrictions as examples
of disability under the new law within in the four
corners of 29 C.F.R 1630 et seq.
Thus, for example, lifting is a major life
activity regardless of whether an
individual
who
claims
to
be
substantially limited in lifting actually
performs activities of central importance
to daily life that require lifting.
Similarly, the Commission anticipates
that the major life activity of performing
manual tasks (which was at issue in

23

Toyota) could have many different
manifestations, such as performing
tasks involving fine motor coordination,
or performing tasks involving grasping,
hand strength, or pressure. Such tasks
need not constitute activities of central
importance to most people’s daily lives,
nor must an individual show he or she is
substantially limited in performing all
manual tasks. 29 C.F.R. 1630.2(i), App.
In viewing direct quotations from 29 C.F.R.
1630, the legal standard placed upon Mr. Booth by the
Appellate Court contradicts plain statements made
within the act. Per the ADAAA;
“The primary object of attention in cases
brought under the ADA should be
whether covered entities have complied
with their obligations and whether
discrimination has occurred,
not
whether an individual’s impairment
substantially limits a major life activity.
Accordingly, the threshold issue of
whether an impairment “substantially
limits a major life activity should not
demand extensive analysis”. 29 C.F.R.
1630.2(j)(iii).
Like Ms. Williams, Mr. Booth’s work
restrictions limited manual tasks of reaching,
overhead work, and neck flexion or extension. Thus,
post ADAAA he is disabled.

24

III. Disability coverage must be made
based upon the non-mitigated state of the
condition.
The ADAAA commands protection of a
disability even if not disabling because of
ameliorative affects to include the effects of
accommodations. In Sutton v. United Air Lines, 527
U.S. 471, 482 119 S. Ct. 2139, 144 L. Ed. 2d 450 (1999)
the Supreme Court held, severely myopic individuals
were not disabled when corrective lenses allowed
them to function identically to people without similar
impairment. The Court reasoned, if a person is taking
measures to correct or mitigate a physical or mental
impairment, the effects of those measures must be
considered when judging whether that person is
"substantially limited" in a major life activity.
Congress rejected this holding:
To reject the requirement enunciated in
Sutton and its companion cases that
whether an impairment substantially
limits a major life activity is to be
determined with reference to the
ameliorative effects of mitigating
measures.154 Cong. Rec. 19438-19440.
The rational is clear,
[A]n
Individual
with
an
impairment that substantially limits a
major life activity should not be
penalized when seeking protection
under the ADA simply because he or she
managed their own adaptive strategies

25

or received informal or undocumented
accommodations that have the effect of
lessening the deleterious impacts on
their disability. 154 Cong. Rec 19435
(2008)(Statement
by
Congressman
Stark).
Per the ADAAA
§1630.2(j)(6), “[T]he
determination
of
whether
an
impairment
substantially limits a major life activity shall be made
without regard to the ameliorative effects of
mitigating measures.”
Per the EEOC, “[A]n individual who, because
of the use of a mitigating measure, has experienced
no limitations, or only minor limitations, related to
the impairment may still be an individual with a
disability where there is evidence that in the absence
of the effective mitigating measure the individual’s
impairment would be substantially limiting.”
The Booth Court misapplied this standard
because he worked for ten years in assembly, even
though said feat was only accomplished with a
mitigating factor.
(Booth mitigating factor is
accommodation; Sutton mitigating factor; vision
correction). The Booth Court claims Mr. Booth was
not disabled, because he always worked. App. A, pg.
A 15.7 (An argument akin to the Toyota decision that
Ms. Williams was not disabled because she qualified
for some of the assembly jobs). Per the Booth opinion,
The Court writes, “To the Contrary, Booth concedes that he
has worked without interruption on the assembly line since
injuring his neck in 2004—and has continued to work there
since this litigation began.” (App. A, pg. 15)
7

26

[t]he disability must prohibit a broad
range of jobs such as … assembly line
jobs. Id. Booth has not made that
showing. To the contrary, Booth
concedes that the has worked without
interruption on the assembly line since
injuring his neck in 2004--- and has
continued to work since this litigation
began. (Appendix A, page 17)
This contradicts the plain fact that Mr. Booth
only worked uninterrupted because of a rotation
accommodation, just like the Sutton Plaintiff’s
worked with eye correction. The Court erred, when
failing to analyze the disability prior to mitigating
effects of accommodation thus accepting Sutton.
Moreover, the ruling contradicts congressional intent
behind the statute. Per Congressman Williams;
Tony Coelho takes medicine for his
epilepsy and so he functions. And if you
saw him, you would say he’s functioning
fine. But if I said, but I won’t hire you,
Tony, because you have epilepsy, the
Court said that was okay. Nobody on
this floor believed that was the case. If
he was discriminated against because he
had a disability, but could do the job, we
said that’s wrong. The Court did not
agree with us [Congress speaking about
the High Court, but it applies to the
Booth Court quote above as well] and
we’re now changing that and making
sure that our intent will be lived out. We

27

never expected that the people with
disabilities who work to mitigate their
conditions would have their efforts held
against them, but the courts did exactly
that.8
Accommodation is an accepted ameliorating
factor. Per the EEOC, “[F]or example, the fact that
mitigating
measures
include
‘reasonable
accommodations’”.
Quoting
House
Judiciary
Committee Report at 20; 2008 House Educ. & Labor
Rep. at 15.
The ability to perform his job misses the
gravamen of Booth’s disability complaint; i.e. Nissan
wanted to revoke an ongoing, mitigating work
accommodation as a condition of continued
employment. Per this record, an email from
management, states, “Mr. Booth’s restrictions
preclude him from running any rotation in the
plant. (Appendix F, pg. A 40). Nissan’s claim that
most jobs in the plant require repetitive neck
movement. (Appendix G, pg. A 41; “Primarily, the
overwhelming majority of jobs in the manufacturing
facility
simply
require
frequent
neck
flexion/extension”)
The Court applied a demanding standard on
Mr. Booth while also evaluating him with the
mitigating standard, both basis for reversal.

Anthony Lee Coelho (“Tony”) served in the United States
House of Representatives with epilepsy; was the primary
sponsor of the Americans with Disabilities Act; and is a
former chairman of the Epilepsy Foundation.
8

28

IV. All precedent relied upon by the
Appellate Court relies on the incorrect
standards outlined in Sutton and Toyota.
The Booth Court required a demanding
standard based upon pre-amendment cases that were
jettisoned by Congress. “We have held that simply
having a work restriction does not automatically
render one disabled, McKay v. Toyota Motor Mfg.,
U.S.A., Inc., 110 F.3d 369, 373 (6th Cir. 1997), nor
does being unable to perform a discrete task or a
specific job. Id.; see also Mahon v. Crowell, 295 F.3d
585, 591 (6th Cir. 2002)” What the Court “has held”
prior to the amendment is without consequence and
now without legal support. Said “past holdings”
sparked the ADAAA.
The Booth Court relied upon McKay v. Toyota Motor
Mfg., U.S.A., Inc., 110 F.3d 369, 373 (6th Cir. 1997).
Ms. McKay was denied ADA protection because,
“McKay must prove that she is ‘significantly’
restricted in ability to perform either a class of jobs or
a broad range of jobs in various classes as compared
to the average person with comparable training,
skills, and abilities.” The ADAAA modified the
meaning of “significantly restricted”.
Preamendment, Pamela McKay was not significantly
limited under the ADA, just because she was
precluded from certain jobs”. McKay at 371. Emphasis
added. Now, she would be covered under the ADAAA
because now, “An impairment need not prevent or
significantly or severely restrict the individual from
performing a life activity in order to be considered
substantially limiting”. 29 C.F.R. 1630.2(j)(ii).
Emphasis added. Per EEOC notes, this expands to

29

a condition as benign as “hand strength” or “hand
pressure” in McKay.(29 C.F.R. 1630.2(i) App.) It
follows that Booth’s disability from reaching,
repetitive neck movement, and working overhead
would likewise be protected.
The Booth Court again revives Sutton and
Toyota via a citation to Mahon v. Crowell, 295 F.3d
585, 591 (6th Cir. 2002).
The Mahon court relies on Toyota by name:
“[I]n Williams (Referred to as Toyota in
the ADAAA) the Supreme Court directly
addressed only the question of when a
claimant is substantially limited in the
major life activity of performing manual
tasks, its decision makes clear that any
impairment that only moderately or
intermittently prevents an individual
from performing major life activities is
not a substantial limitation under the
Act. See 122 S. Ct. at 691. [Toyota]
Specifically, in Mahon, “The Supreme Court
emphasized that these terms need to be interpreted
strictly to create a demanding standard
for qualifying as disabled." Mahon at 590, citing
Toyota, 122 S. Ct. at 691. Emphasis added. Now,
“Substantially limits is not meant to be a demanding
standard”. 29 C.F.R. 1630 (j)(i). Mahon’s major life
activities of “sitting, standing, bending, stooping,
walking, climbing, lifting” bring within the ADAAA.

30

Per the Legislative history a lifting restriction
is protected whether or not lifting is central:
Thus, for example, lifting is a major life
activity regardless of whether an
individual
who
claims
to
be
substantially limited in lifting actually
performs activities of central importance
to daily life that require lifting.
Similarly, the Commission anticipates
that the major life activity of performing
manual tasks (which was at issue in
Toyota) could have many different
manifestations, such as performing
tasks involving fine motor coordination,
or performing tasks involving grasping,
hand strength, or pressure. Such tasks
need not constitute activities of central
importance to most people’s daily lives,
nor must an individual show he or she is
substantially limited in performing all
manual tasks. 29 C.F.R. 1630.2(i), App.
Finally, the Booth Appellate Court follows Ferrari v.
Ford Motor Co., 826 F.3d 885 (6th Cir. 2016) simply
because the opinion was entered after the Act. But
timing isn’t everything and here it means nothing.
Ferrari continues to rely on pre-ADAAA standards. A
direct quote from Ferrari:
[T]he statutory phrase "substantially
limits" takes on special meaning . . . and
imposes
a
stringent
standard,
requiring proof that the employer

31

regarded the employee as significantly
restricted in the ability to perform either
a class of jobs or a broad range of jobs in
various classes as compared to the
average person having comparable
training, skills and abilities. Ferrari at
893.
There is no legal basis in the ADAAA or
Congressional intent to impose a stringent standard
EVER on the definition of disability. Ferrari got there
relying on Sutton and Toyota thereby breathing life
into precedent specifically overturned by Statute.
Ferrari relies upon Daugherty v. Sajar Plastics, Inc.,
544 F.3d 696 (Sixth Cir. 2008). Daugherty relies upon
the rejected Sutton standard specifically overturned.
Sutton is quoted in Daugherty, “[S]uch evidence does
not suffice to establish a prima facie regarded-asdisabled discrimination claim under the ADA and
OCRA that implicates the major life activity of
working. Daugherty at 706, citing, Sutton, 527 U.S. at
492.” The Booth panel continues the domino effect
relying on Ferrari, relying on Daughtry, relying on
Sutton. There is no sign this pattern will stop unless
the Supreme Court steps in and upholds the intention
of Congress. Meanwhile, millions of disabled workers
will become a burden on society.
V. The major life activity of “working” is
not immune from the new rules of construction.
A. Congress intended a less demanding
standard on the “broad range of jobs”
requirement cited by the Booth Appellate
Court.

32

Per the Booth Court, one major life activity
remained unchanged within the amendment. They
state:
Even so, Congress did not modify the
definition of the major life activity of
working, and a plaintiff who alleges a
work-related
disability
“is
still
required to show that her impairment
limits her ability to ‘perform a class of
jobs or broad range of jobs.’” Tinsley v.
Caterpillar Fin. Servs., Corp., No. 185303, 2019 WL 1302189, at *5 (6th
Cir. Mar. 20, 2019) (quoting 29 C.F.R.
§ 1630, App. (2016)); accord Mancini v.
City of Providence, 909 F.3d 32, 42 n.6
(1st Cir. 2018); Carothers v. County of
Cook, 808 F.3d 1140, 1147 (7th Cir.
2015); Allen v. SouthCrest Hosp., 455 F.
App’x 827, 835 (10th Cir. 2011).
This position cannot co-exist with the Congressional
mandate where, “An impairment need not prevent or
significantly or severely restrict the individual from
performing a life activity in order to be considered
substantially limiting”. 29 C.F.R. 1630.2(j)(ii)
Because the reformation was achieved by
redefining the meanings, a broad range of jobs has
been redefined to a be a lesser standard. The ADAAA
retained “broad range” just like it retained
“substantial” and “major”. Based upon this retention,
the Booth Court determined there was no change and
said major life activity still required a stringent

33

standard. Here is the catch-22 prohibited by the
ADAAA where you can’t do the job but are not
disabled. Per Congressman Nadler;
Under the lower standard for qualifying
as disabled, for example, an individual
who is disqualified from his or her job of
choice because of an impairment should
be considered substantially limited in
the major life activity of working.
Previously in providing guidance on
what the term “substantially limits”
means with respect to the major life
activity of working, the EEOC indicated
that ‘the inability to perform a single
particular job” was not a “substantial”
(i.e. ‘significant” enough limitation. S.
3406
states
that
interpreting
“substantial” to require a “significant
limitations sets too high a standard and
that we expect the EEOC to redefine this
portion of its regulations. Naturally,
this change will require reconsideration
of the meaning of “substantial”
limitation in the major life activity of
working as well as other major life
activities.
A demanding standard for major life activity is
contrary to the whole purpose of the amendment to
promote independence and productivity. Thus, there
is sufficient evidence that the “working” threshold
was adjusted by the rules of construction. The more
likely interpretation is that like “substantial”,

34

“major”, and “broad range of jobs” standards are all
subject to rules of construction.
The Booth Court has no support in the
Amendments Act to apply a demanding standard in
any element. Any attempt to do so is simply contrary
to purpose and spirit of the Amendment. Congress
couldn’t have been clearer, and the difficulty lies
when the Courts remain entrenched in a preamendment ideal.
Also troublesome, is a “broad class of jobs”
requirement when all failure to promote cases involve
one job. The next catch-22 and absurd result is one
can be discriminated in a failure to promote but is not
sufficiently disabled to qualify for ADAAA protection.
One area of the Act cannot require the claimant to
identify a specific job for a promotion claim, while the
other requires a disability from a broad range of jobs.
Booth was denied a promotion because of his work
restrictions. The Court denied disability protection,
because he was not precluded from a “broad class of
jobs”. If followed, no worker who files a failure to
promote claim will be sufficiently “disabled”; again,
an absurd result.
B. Mr. Booth’s major life activity was not
“working” but manual tasks thus mooting an
analysis of the “broad range of jobs”.
Mr. Booth’s major life activity was manual
tasks. Reaching the major life activity of working is
rare post amendment. Per the EEOC,

35

In most instances, an individual with a
disability will be able to establish
coverage by showing substantial
limitation of a major life activity other
than working; impairments that
substantially limit a person's ability to
work usually substantially limit one or
more other major life activities. This will
be particularly true in light of the
changes made by the ADA Amendments
Act. See, e.g., Corley v. Dep't of Veterans
Affairs ex rel Principi, 218 F. App'x. 727,
738 (10th Cir. 2007) (employee with
seizure disorder was not substantially
limited in working because he was not
foreclosed from jobs involving driving,
operating machinery, childcare, military
service, and other jobs; employee would
now be substantially limited in
neurological function); Olds v. United
Parcel Serv., Inc.,127 F. App'x. 779, 782
(6th Cir. 2005) (employee with bone
marrow cancer was not substantially
limited in working due to lifting
restrictions caused by his cancer;
employee
would
now
be
substantially limited in normal cell
growth); Williams v. Philadelphia
Hous. Auth. Police Dep't,380 F.3d 751,
763-64 (3d Cir. 2004) (issue of material
fact concerning whether police officer's
major depression substantially limited
him in performing a class of jobs due to
restrictions on his ability to carry a
firearm; officer would now be

36

substantially limited in brain
function). 29 C.F.R. 1630.2(j), App.
Mr. Booth was permanently restricted from
certain manual tasks. 29 C.F.R. 1630.1 covers any
physiological condition. In this case the condition is a
neck injury that resulted in a bulging disk and
sequalae. The statute identifies examples of major
life activities to include “performing manual tasks”
and “reaching”, but these examples are not an allencompassing list. 29 C.F.R. 1630.2(i)(i), App. Mr.
Booth was medically and permanently restricted from
repetitive movements of his neck, working at shoulder
level, i.e. reaching, and overhead work, i.e. reaching.
These are his major life activities that bring him
under the Statute. Now, Mr. Booth turns to the third
mistake in the “major life activity” analysis.
C. Even if the major life activity of
working a broad class of jobs is required, this
record contains ample evidence for a
reasonable juror to find in Booth’s favor.
As an aside from statutory construction, even
if the major life activity was a disability from
“working”, Mr. Booth proved an impairment from a
broad range of jobs. Remembering this matter was
dismissed at the summary judgment stage, this
record does suggest any reasonable juror would reject
could find a broad class of assembly jobs requirement.
The email, stating Mr. Booth’s restrictions preclude
him from running any rotation in the plant should
suffice. (App. F, pg. A 40). Nissan’s letter to the EEOC
claims he was prevented from most of the jobs because
they require repetitive neck movement, should

37

suffice. (App. G, pg. A 41 where, “Primarily, the
overwhelming majority of jobs in the manufacturing
facility
simply
require
frequent
neck
flexion/extension”).
Conclusion
Mr. Booth requests the Supreme Court issue a
writ of certiorari to the Appellate Court to address the
definition of disability under the Americans with
Disability Act, Amendment Act of 2008
Respectfully submitted
_________________
Constance Mann
The Law Offices of Constance
Mann
1107 Battlewood Street
Franklin, TN 37069
(615) 724-1800
cmannlaw@msn.com
Attorney for Petitioner

Appendix - 1 -

APPENDIX TABLE OF CONTENTS

Sixth Circuit Court of Appeals
Opinion and Judgement (June 7, 2019)……..…….A 2
Order Denying Petition for Hearing
En Banc. (August 2, 2019)…………………………A 21
District Court Opinion and Order
(August 17, 2018)……………………………………A 22
Permanent work restrictions……………………...A 35
Accommodation approvals…………………………A 38
Email from LaCroix…………………………………A 40
Nissan position statement to EEOC....................A 41

Appendix - 2 RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0119p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL ADAM BOOTH,
Plaintiff-Appellant
v.
NISSAN NORTH AMERICA
INC.,
Defendant-Appellee.

)
)
)
)
)
)
)
)

Appeal from the United States District Court for the
Middle District of Tennessee at Nashville.
No. 3:17-cv-00755—William Lynn Campbell, Jr., District
Judge.
Argued: April 30, 2019
Decided and Filed: June 7, 2019
Before: GUY, SUTTON, and NALBANDIAN, Circuit Judges.

_________________
COUNSEL
ARGUED: Constance Mann, THE LAW OFFICES
OF CONSTANCE MANN, Franklin, Tennessee, for
Appellant.
Stanley E. Graham, WALLER
LANSDEN DORTCH & DAVIS, LLP, Nashville,
Tennessee, for Appellee. ON BRIEF: Constance
Mann, THE LAW OFFICES OF CONSTANCE
MANN, Franklin, Tennessee, for Appellant.
Stanley E. Graham, Brittany Stancombe Hopper,
WALLER LANSDEN DORTCH & DAVIS, LLP,
Nashville, Tennessee, for
Appellee.

Appendix - 3 -

_________________
OPINION
_________________
NALBANDIAN, Circuit Judge. After Michael Booth
started working at a Nissan factory in Tennessee, he
injured his neck and sought medical treatment.
Booth’s physician recommended several work
restrictions, including that he not reach above his
head or flex his neck too much, but the restrictions
did not sideline Booth. Indeed, he continued to work
on the assembly line for about a decade without
incident. But in 2015, the work restrictions
became relevant again. Booth requested a transfer
to a different position in the factory, which Nissan
denied because that position’s duties conflicted with
Booth’s work restrictions.
Booth contends that
Nissan’s denial was disability discrimination that
violated the Americans with Disabilities Act
(“ADA”), 42 U.S.C. §§ 12101 et seq.
Soon after Booth requested the transfer,
Nissan announced plans to restructure the
assembly line. While Booth and his co-workers on
the line had performed two discrete jobs, Nissan
wanted to modify the line so that workers would
perform four jobs. Booth alleges that the two
additional jobs Nissan assigned to him would have
violated his work restrictions—and that when he
informed Nissan about this conflict, Nissan told
him to see a physician to assess whether he still
needed the restrictions. Booth followed that request,
and his physician modified the restrictions, clearing
him to work all four jobs. Although Booth remains a

Appendix - 4 -

Nissan employee, he claims that Nissan failed to
accommodate him—a separate violation of the
ADA—by pressuring him to remove his work
restrictions.
Of course, to sue under the ADA, the
plaintiff must be disabled. And just because a
plaintiff has work restrictions does not mean that
he is disabled. Because Booth has not advanced
evidence that he is disabled under the ADA (among
other reasons), his claims fail.
We AFFIRM the
district court’s decision granting summary judgment
to Nissan.
I.
After Booth had begun working at Nissan, he
injured his neck in October 2004. Booth visited his
physician, who issued a report recommending
several permanent work restrictions, including that
(1) Booth work overhead or above his shoulders
no more than 33% of the time; and (2) Booth flex
or extend his neck no more than 66% of the time.
Those restrictions did not affect Booth’s day-to-day
job duties: Booth explained that “[f]rom 2004
through 2015, [he]worked within his original 2005
restrictions.” (R. 32, Pl.’s Resp. to Statement of
Material Facts t ¶ 9.)
In April 2014, Nissan transferred Booth to a
different part of the assembly line, the “door line,” but
Booth’s work restrictions did not interfere with his
work there, either.

Appendix - 5 -

This appeal concerns two events that
occurred about a decade after Booth’s physician
recommended the work restrictions: (1) Booth’s
requested transfer to a material handling position;
and (2) Booth’s transition on the door line from
a two-job position to a four-job position. We
consider each event below.
Material Handling Transfer. Sometime in
September or October 2015, Booth requested a
transfer to a material handling position. If Nissan
had granted the transfer, Booth would not have
seen any changes to his pay or benefits. But
Booth alleges that the material handling position
was less stressful and thus more desirable than
his position on the line. Nissan refers internally to
the material handling role as a “preferred” position
that it awards to applicants based on seniority and
their ability to perform the position’s essential
functions.
Nissan denied Booth’s transfer request. In
November
2015,
Nissan
human
resources
representative Darron Keith informed Booth that
although he had enough seniority to apply for the
material handling position, his work restrictions
conflicted with the position’s requirements. Booth,
however, insisted that he could perform the role
without violating his restrictions, and asked to
speak about Nissan’s decision with other supervisors.
The next month, Booth met with Debbie Nelson, a
manager in Nissan’s medical department, to discuss
why Nissan had denied his transfer request. Once
again, Booth heard that his work restrictions
conflicted with the duties of the material handling

Appendix - 6 -

role. Not satisfied with that explanation, Booth
continued to pursue the matter with his
supervisors; in October 2016, Booth met with
Randy Knight, a Nissan senior manager, to discuss
why Nissan denied his transfer application. Knight
promised to get back to Booth, but in the interim,
Booth remained in his position on the line.
Door Line Transition. When Booth arrived at
the door line in 2014, workers there had to perform
two discrete jobs. For Booth, that meant installing
the right-side water shield and the left-side
regulator. But around the time Booth requested the
transfer, Nissan announced plans to overhaul its
assembly lines, including the door line. Rather
than perform two discrete installation jobs, door line
workers would have to install four components of a
car. In Booth’s case, Nissan wanted him to start
installing the left-side door glass and left-side door
panel along with the two jobs he was already
performing. When Booth met with Darron Keith in
November 2015 to discuss the material handling
position, he told Keith that the two new
installation jobs Nissan wanted him to perform
would violate his work restrictions and again
requested to transfer to the material handling
position, which Booth described as “an easier and
simpler job.” (R. 25–2, Booth Dep. at 36:7–13.)
In
September 2016, Nissan started
implementing the announced changes to its assembly
lines.
So once more, Booth warned Nissan
management—including his direct supervisor Randy
Wiseman—that his work restrictions might
prevent him from performing all four jobs on the

Appendix - 7 -

door line. In response, Nissan inquired with its
insurer whether Booth could perform any of the jobs
on the door line. Nissan soon learned that no such
jobs existed, so Nissan kept Booth in his two-job
position for the time being.
Later that fall, Nissan supervisors began
to express concern that Booth’s restrictions would
interfere with his ability to remain on the door
line—even in his two-job position. According to
Booth, Randy Knight suggested that the two jobs
Booth was already performing— installing the rightside rear water shield and the left-side regulator—
conflicted with his work restrictions. Later, Knight
warned Booth that Nissan was “not going to have
a job for [him]” unless he changed the work
restrictions. (R. 31–6, Booth Dep. at 98:20–25.)
To prevent that from happening, several Nissan
employees—including Knight and Wiseman—
encouraged Booth to see a physician to determine
whether his restrictions were still medically
necessary. Email correspondence between Nissan
supervisors reflects the same concern.
In
November 2016, Nissan senior manager Mark
LaCroix emailed a colleague to explain that
Booth’s restrictions do not “clea[r] him to run any jobs
in the plant” and that Nissan advised Booth “of the
steps he would need to take in order to possibly
improve his current standings in regards to his
restrictions.” (R. 31–5, Email.) LaCroix followed up
on his email in January 2017, noting that Nissan
“continued to let [Booth] work in his current pod, but
we can’t continue to do that if he doesn’t get his Perm
Restrictions modified to clear him for duty.” (Id.) And
Nissan human resources manager Bill Slagle

Appendix - 8 -

responded that while Booth had scheduled several
medical appointments to reevaluate his restrictions,
he “needs to be refreshed on the urgency and need for
the medical clinic to assess the findings of the
doctor and make a determination regarding his
current restrictions.” (Id.)
Booth ultimately met with a physician,
who performed a functional capacity test and
issued a report modifying Booth’s work restrictions.
Under Booth’s 2005 work restrictions, he could not
flex his neck more than 66% of the time, but the
physician removed that restriction entirely. The
physician maintained the restrictions that limited
Booth’s overhead activity and reaching to no more
than 33% of the time. But while Booth’s 2005
restrictions applied to both his right and left side, the
physician limited the restrictions only to activity on
Booth’s left side. Booth testified that he has no
disagreement with his physician’s revisions to his
work restrictions.
After Booth informed his supervisors about
the revised work restrictions, Nissan determined
that he could work the full, four-job position without
violating his work restrictions. In February 2017,
Nissan cleared Booth to work on the assembly
line, and Booth’s counsel stated at oral argument
that Booth continues to work there.
This litigation dates to November 2016,
when Booth filed an intake questionnaire with the
Equal Employment Opportunity Commission in
which he alleged disability discrimination. Booth
then filed a formal charge with the Tennessee

Appendix - 9 -

Human Rights Commission in December 2016,
alleging disability discrimination and retaliation.
The EEOC dismissed Booth’s charge after
concluding that Booth had not supplied sufficient
information to establish an ADA violation. So,
Booth filed this lawsuit in the Middle District of
Tennessee, alleging failure-to- accommodate and
disability discrimination, both in violation of the
ADA, and a state law workers’ compensation
retaliation claim. Nissan moved for summary
judgment, which the district court granted. Booth
appeals the district court’s dismissal of his ADA
claims.1
Booth did not appeal the district court’s
dismissal of his workers’ compensation retaliation
claim so we do not address that issue.
II.
We review a district court’s summary
judgment decision de novo. Auburn Sales, Inc. v.
Cypros Trading & Shipping, Inc., 898 F.3d 710, 715
(6th Cir. 2018). In doing so, we must view the
evidence and draw all inferences in the light most
favorable to Booth, the nonmoving party, to
determine whether there is a genuine issue of
material fact. Henschel v. Clare Cty. Rd. Comm’n,
737 F.3d 1017, 1022 (6th Cir. 2013). If there is,
summary judgment is improper. Id.
A.
Booth did not appeal the district court’s dismissal of his
workers’ compensation retaliation claim so we do not address
that issue.
1

Appendix - 10 -

Booth’s first claim is that Nissan engaged in
disability discrimination when it denied his requested
transfer to the material handling role. But before
we can consider the merits of that claim, we first
address Nissan’s argument that the claim is
untimely. Booth’s claim arises under the ADA,
which imposes several procedural requirements
before plaintiffs may turn to federal court for
relief. Bullington v. Bedford Cty., 905 F.3d 467,
469 (6th Cir. 2018). One such requirement relates
to timeliness: the plaintiff must first file a charge
describing the alleged discrimination, either with
the EEOC or with an equivalent state agency,
before he can litigate the claim in court. Cox v.
City of Memphis, 230 F.3d 199, 202 n.2 (6th Cir.
2000). If the plaintiff files his charge directly with
the EEOC, he must do so within 180 days of the
alleged discrimination; if he chooses instead to file
the charge with an equivalent state agency, he
has 300 days from the alleged discrimination. See 42
U.S.C. § 12117; 42 U.S.C. § 2000e-5; Block v. Meharry
Med. Coll., 723 F. App’x 273, 277 (6th Cir. 2018).
Booth filed his charge with the Tennessee
Human Rights Commission on December 9, 2016,
so for his claim to be timely, the alleged
discrimination must have occurred sometime within
300 days of December 9, 2016. Thus, our task is
to determine when the alleged discrimination
occurred. According to Nissan, the 300-day deadline
for Booth to file his charge began sometime in
November 2015, when Nissan supervisor Darron
Keith informed Booth that Nissan had rejected his
transfer request. If Nissan is correct, then Booth’s

Appendix - 11 -

claim is untimely even if Keith told Booth about the
decision on November 30, 2015, Booth still waited
more than 300 days before filing his charge. Booth,
however, argues that Nissan did not make a final
decision about his transfer request until sometime
in October or November 2016—and that his charge
is therefore timely.
We find Nissan’s argument persuasive. Booth
has advanced no evidence to suggest that Nissan’s
denial of his transfer request in November 2015
was anything but a final decision. rue, Booth
requested to speak with other supervisors after
learning that Nissan had denied his transfer, and
Nissan granted that request. But Nissan’s decision
was
no
less
final,
simply because Nissan
supervisors explained the company’s decision to
Booth several times in 2015 and 2016. Those
discussions did not reset the 300-day deadline to file
the charge.
We considered a similar issue in Hall v.
The Scotts Co., in which the plaintiff sued his
employer under the ADA after his employer
refused to purchase special respirator equipment
that would have allowed him to operate a forklift.
211 F. App’x 361 (6th Cir. 2006). The employer
announced its decision to not purchase the
equipment in August 2003, citing safety concerns.
Id. at 362. In November, the plaintiff offered to
purchase the equipment himself if it meant that he
could operate the forklift, but the employer declined
that offer in December. Id.

Appendix - 12 -

The plaintiff then filed a charge in October
2004 and later filed a complaint in federal court. We
held that the claim was untimely because the
allegedly discriminatory act occurred in August
2003, when the employer first denied the plaintiff’s
requested accommodation, and we described the
plaintiff’s later request as “simply an impotent
attempt to renew his earlier request” rather than
the “culmination of an interactive process to
accommodate his disability.” Id. at 363 (internal
quotation marks omitted). Our reasoning in Hall
applies with equal force here. Booth had 300 days to
file a charge from November 2015, when Keith
informed him that Nissan denied his transfer request.
Even if we assume that Keith notified Booth on the
last day of November, Booth’s charge would still be
late. Thus, Booth cannot pursue his disability
discrimination claim in federal court.
If Booth had satisfied the ADA’s procedural
requirements, his disability discrimination claim
would still fail because Booth has not supplied
evidence to suggest that he is disabled.
The
ADA
forbids
employers
from
discriminating “against a qualified individual on the
basis of disability in regard to job application
procedures, the hiring, advancement, or discharge
of employees, employee compensation, job training,
and other terms, conditions, and privileges of
employment.” 42 U.S.C. § 12112(a). So, to establish
a prima facie claim for disability discrimination,
the plaintiff must show that:
1) he or she is disabled; 2) otherwise
qualified for the position, with or without

Appendix - 13 -

reasonable accommodation; 3) suffered an adverse
employment decision; 4) the employer knew or had
reason to know of the plaintiff’s disability, and 5)
the position remained open while the employer
sought other applicants or the disabled individual
was replaced. Whitfield v. Tennessee, 639 F.3d 253,
259 (6th Cir. 2011) (internal quotation marks and
citations omitted; emphasis added). And to prove that
he is disabled, Booth must show that he has (1) “a
physical or mental impairment that substantially
limits one or more major life activities,” (2) “a record
of such an impairment,” or (3) “[is] regarded as having
such an impairment[.]” 42 U.S.C. § 12102(1); see also,
Talley v. Family Dollar Stores of Ohio, Inc., 542 F.3d
1099, 1105 (6th Cir. 2008). Finally, “working” is an
example of a major life activity. 42 U.S.C. §
12102(2)(A).
Booth seems to assume that because he has
work restrictions and because Nissan denied his
transfer request because of those restrictions, he is
disabled under the ADA. And he states that Nissan
“do[es] not dispute [his] disability or need for
accommodation.” (Appellant Br. 13.)In fact, the
record suggests that Nissan has vigorously
disputed the issue: Nissan argued in its summary
judgment motion before the district court that
Booth is not disabled under the ADA, and Nissan
raised that argument again in its brief to this
court.2

The district court did not address Nissan’s argument that
Booth is not disabled and instead dismissed Booth’s claims
on other grounds.
2

Appendix - 14 -

Indeed, Nissan argues that Booth is not
disabled under the ADA and that his disability
discrimination claim therefore fails.
Several of our published decisions support
Nissan’s position. We have held that simply having
a work restriction does not automatically render
one disabled, McKay v. Toyota Motor Mfg., U.S.A.,
Inc., 110 F.3d 369, 373 (6th Cir. 1997), nor does being
unable to perform a discrete task or a specific job. Id.;
see also Mahon v. Crowell, 295 F.3d 585, 591 (6th Cir.
2002). But as Booth’s counsel noted at oral argument,
those cases predate Congress’s 2008 amendments to
the ADA, which reflected a direct response to the
Supreme Court’s “narrow interpretation of what
constitutes a disability.” Robbins v. Saturn Corp.,
532 F. App’x 623, 628 (6th Cir. 2013). In amending
the statute, Congress instructed courts that the
“definition of disability . . . shall be construed in
favor of broad coverage of individuals,” 42 U.S.C.
§ 12102(4)(A), and the statute now underscores that
an impairment that “substantially limits one major
life activity need not limit other major life activities
in order to be considered a disability.” Id. §
12102(4)(C). Even so, Congress did not modify the
definition of the major life activity of working, and a
plaintiff who alleges a work-related disability “is
still required to show that her impairment limits
her ability to ‘perform a class of jobs or broad range of
jobs.’” Tinsley v. Caterpillar Fin. Servs., Corp., No.
18-5303, 2019 WL 1302189, at *5 (6th Cir. Mar.
20, 2019) (quoting 29 C.F.R. § 1630, App. (2016));
accord Mancini v. City of Providence, 909 F.3d 32, 42
n.6 (1st Cir. 2018); Carothers v. County of Cook,
808 F.3d 1140, 1147 (7th Cir. 2015); Allen v.

Appendix - 15 -

SouthCrest Hosp., 455 F. App’x 827, 835 (10th Cir.
2011). EEOC regulations explain that a plaintiff
cannot claim
a
disability
by
simply
“[d]emonstrating a substantial limitation in
performing the unique aspects of a single specific
job.” 29 C.F.R. § 1630, App. (2016). That Booth’s neck
injury and related work restrictions kept him from
working in the material handling role does not
resolve whether Booth is disabled under the ADA.
Rather than point to one job that he cannot perform,
a plaintiff alleging a work-related disability must
show that his condition precludes him from
working in a class or broad range of jobs, “such as . . .
assembly line jobs.” Id. Booth has not made that
showing. To the contrary, Booth concedes that he has
worked without interruption on the assembly line
since injuring his neck in 2004—and has
continued to work there since this litigation began.
Moreover, Booth does not argue that
Nissan denied his transfer request because it
regarded him as disabled. Nor could he. Under the
ADA, an employee: meets the requirement of “being
regarded as having such an impairment” if the
individual establishes that he or she has been
subjected to an action prohibited under this
chapter because of an actual or perceived physical
or
mental impairment whether or not the
impairment limits or is perceived to limit a major life
activity. 42 U.S.C. § 12102(3)(A). In other words,
a plaintiff may seek relief under the ADA if his
employer
mistakenly
believes
that
he
is
substantially limited from performing a major life
activity, such as work. Ferrari v. Ford Motor Co.,
826 F.3d 885, 893 (6th Cir. 2016). In Ferrari, a

Appendix - 16 -

decision following Congress’s 2008 amendments to
the ADA, we considered whether the plaintiff’s
employer regarded him as disabled. Id. at 892–93.
The plaintiff in that case worked on a Ford
assembly line and became eligible for a transfer
to a skilled trade apprenticeship, provided he
passed a medical examination to ensure that he
could perform the role. Id. at 889. That proved to be
a problem: the plaintiff had injured his neck and
treated the injury with prescription opioids, yet the
apprenticeship would have required him to work
regularly overhead and climb 50-foot ladders. Id. Ford
concluded that the plaintiff’s opioid use precluded him
from holding the apprenticeship position and placed
him instead in a machining position that met his
restrictions. Id. at 890–91. We rejected the plaintiff’s
argument that Ford regarded him as disabled, noting
that Ford had placed the plaintiff in “both clerical and
assembly positions” and that Ford had “only barred
[the plaintiff] from a single, particular job—the [
]apprenticeship.” Id. at 893. Thus, we concluded
that the evidence did not show that Ford regarded
the plaintiff’s restrictions “as a substantial
impairment on the major life activity of working.”
Id. at 894. For these same reasons, Booth has not
shown that Nissan regarded him as disabled when it
denied his transfer request (while employing him
on the assembly line all along).
At summary judgment, we must draw all
inferences and view all evidence in the light most
favorable to Booth, the nonmoving party. Henschel,
737 F.3d at 1022. But if the moving party shows the
lack of a genuine issue of material fact on an element
of the nonmoving party’s case, the nonmoving party

Appendix - 17 -

must set forth specific facts showing a triable
issue. Hedrick v. Western Reserve Care Sys., 355
F.3d 444, 451–52 (6th Cir. 2004). Because Booth has
advanced no evidence of his disability beyond his
work restrictions, he cannot show that he is disabled
and has therefore failed to carry his burden at
summary judgment. We affirm the district court’s
grant of summary judgment on that claim.
B.
Booth brings a separate claim under the
ADA, alleging that Nissan failed to accommodate
his disability after it modified its assembly lines. The
thrust of Booth’s argument is that Nissan pressured
him to remove his work restrictions—and, indeed,
warned that there would be no jobs for him at the
factory—rather than accommodate his limitations.
Unlike his disability discrimination claim,
Booth’s failure-to-accommodate claim is timely
because the alleged conduct underlying this claim
continued even after Booth filed his charge with
the Tennessee Human Rights Commission. Thus, we
consider the merits of Booth’s claim.
Generally,
there are two ways to prove disability
discrimination—either
directly
or indirectly.
Hostettler v. College of Wooster, 895 F.3d 844, 852
(6th Cir. 2018) (citing Ferrari, 826 F.3d at 891). The
type of evidence (direct or indirect) that the plaintiff
must provide—and the test that governs the
plaintiff’s claim—depends on the nature of the claim.
Here, failure-to- accommodate claims “necessarily
involve
direct
evidence
(the
failure
to
accommodate) of discrimination.” Kleiber v. Honda of

Appendix - 18 -

Am. Mfg., Inc., 485 F.3d 862, 869 (6th Cir. 2007)
(citing Bultemeyer v. Fort Wayne Cmty. Sch., 100
F.3d 1281, 1283 (7th Cir. 1996)); see also E.E.O.C. v.
Dolgencorp, LLC, 899 F.3d 428, 435 (6th Cir.
2018) (“And failing to provide a protected employee
a reasonable accommodation constitutes direct
evidence of discrimination.”) So, to bring a claim
for failure-to-accommodate, the plaintiff must
provide direct evidence that he suffered an adverse
employment action because of his disability. Ferrari,
826 F.3d at 891.
Under the direct method of proof, the
plaintiff must prove that (1) he is disabled under
the ADA; and (2) he is otherwise qualified for the
position, despite his disability, “(a) without
accommodation from the employer; (b) with an
alleged ‘essential’ job requirement eliminated; or (c)
with a proposed reasonable accommodation.”
Ferrari, 826 F.3d at 891 (citation omitted). If the
plaintiff proves those elements, his employer must
then show that “a challenged job criterion is
essential . . . or that a proposed accommodation will
impose an undue hardship.” Id. (citation omitted).
Like his disability discrimination claim,
Booth’s failure-to-accommodate claim fails out of
the gate because he has not advanced an argument,
supported by evidence, that he is disabled under the
ADA.3

We note that this issue would have been closer, had Booth
argued that Nissan regarded him as disabled when it warned
Booth that he would be jobless unless he changed his work
restrictions. But Booth does not make this argument in his
3

Appendix - 19 -

But even setting the disability element aside,
Booth’s failure-to-accommodate claim fails for a
separate reason:
Nissan never failed to
accommodate Booth. Nissan allowed Booth to
remain in the two-job position after he alerted his
supervisors that the two new tasks Nissan wanted
him to perform conflicted with his work restrictions.
And Booth remained in that role while he sought
medical advice about his work restrictions. Nissan
did not move Booth from the two-job position until
it reviewed his doctor’s report and determined that
his work restrictions did not conflict with the
modified positions on the assembly line. Nor does
Booth suggest that he misreported his symptoms
or otherwise encouraged his doctor to modify the
restrictions in order to preserve his job. To the
contrary, Booth testified that he does not disagree
with his doctor’s revisions to his work restrictions. So,
Booth’s claim also fails because he has offered no
evidence that Nissan failed to accommodate him.
III.
For these reasons, we AFFIRM the district
court’s summary judgment decision.

brief, and in any event, his failure-to-accommodate claim fails
for separate reasons.

Appendix - 20 No. 18-5985
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL ADAM BOOTH,
Plaintiff-Appellant,

)
)
)
v.
)
)
NISSAN NORTH AMERICA, )
INC.,
)
Defendant-Appellee. )

Order

Before: GUY, SUTTON, and NALBANDIAN, Circuit Judges.
JUDGMENT
On Appeal from the United States District Court for the
Middle District of Tennessee at Nashville.
THIS CAUSE was heard on the record from the district
court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the
district court’s grant of summary judgment to Nissan North
America, Inc. is AFFIRMED.
Entered by Order of the Court,
S/Deborah H. Hunt
Deborah H. Hunt, Clerk

Appendix - 21 -

No. 18-5985
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL ADAM BOOTH,
Plaintiff-Appellant,

)
)
)
v.
)
)
NISSAN NORTH AMERICA, )
INC.,
)
Defendant-Appellee. )

Order

BEFORE: GUY, SUTTON, and NALBANDIAN, Circuit Judges.
The court received a petition for rehearing en banc. The
original panel has reviewed the petition for rehearing and
concludes that the issues raised in the petition were fully
considered upon the original submission and decision of the case.
The petition then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
Entered by Order of the Court
S/Deborah H. Hunt
Deborah H. Hunt, Clerk

Appendix 22
IN THE UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
MICHAEL ADAM BOOTH,
Plaintiff,

)
)
)
v.
)
)
NISSAN NORTH AMERICA, )
INC.,
)
Defendant.
)

No:3:17-cv-0755
JUDGE CAMPBELL
MAGISTRATE FRENSLEY

MEMORANDUM
I.

Introduction

Pending before the Court is Defendant’s Motion for
Summary Judgment (Doc. No. 25). For the reasons set
forth below, Defendant’s Motion for Summary Judgment
(Doc. No. 25) is GRANTED, and this action is
DISMISSED.
II.

Factual and Procedural Background

Plaintiff Michael Adam Booth, an employee of
Defendant Nissan North America, Inc. (“Nissan”), has
brought this action asserting claims for violations of
the Americans With Disabilities Act, 42 U.S.C. §§ 12101,
et seq. (“ADA”), and for workers’ compensation retaliation
under state law. (Doc No. 1). Plaintiff injured his neck
at work in 2004, resulting in work restrictions Plaintiff
acknowledges were accommodated by Nissan until the
events giving rise to this lawsuit. (Id. ¶ 12; Plaintiff’s
Response to Statement of Material Facts in Support
of Defendant’s Motion for Summary Judgment ¶¶ 8, 9

Appendix 23
(Doc. No.
Facts”)).

32)

(hereinafter

“Plaintiff’s Response to

In 2014, Plaintiff transferred to a “zone” on the
“Door Line,” a part of Nissan’s vehicle- production process.
(Id. ¶ 3). In September or October, 2015, Plaintiff
requested a transfer to a vacant position in “Material
Handling.” (Id. ¶¶ 10-13; Plaintiff’s Deposition, at 16-17,
34 (Doc. Case 3:17-cv-00755 Document 40 Filed 08/17/18
Page 1 of 12 Page ID #: 746o. 25-1)). Defendant denied the
request in November, 2015, advising Plaintiff the new job
was beyond his work restrictions. (Id.).
In September, 2016, Randy Wiseman became the
supervisor of the Door Line and began implementing
Nissan’s transition of the zone where Plaintiff worked from
a two-job rotation to a four-job rotation. (Declaration of
Randy Wiseman, ¶¶ 2-3 (Doc. No. 28)). When he was
told Defendant would be implementing a four-job
rotation for his zone, Plaintiff became concerned that
the two new jobs Defendant intended to add would be
outside his work restrictions. (Plaintiff’s Deposition, at
34-35, 136; Plaintiff’s Response to Facts ¶ 14). Given
Plaintiff’s concern, Defendant asked its third-party
medical provider, Progressive Health, to analyze the
functions of the jobs on the Door Line to see if any four-job
rotations would be compatible with Plaintiff’s original
2005 work restrictions. (Plaintiff’s Response to Facts ¶¶
17-19).
In a September, 2016 report, Progressive
Health concluded there were no four-job rotations on
the Door Line compatible with Plaintiff’s original 2005
restrictions. (Id.; Doc. No. 28-1).
Given the results of the report, Plaintiff’s
supervisors requested that Plaintiff have a physician
determine whether the restrictions imposed 10 years
earlier remained applicable. (Plaintiff’s Deposition, at 5758, 99-101). For approximately three-to-four months in
late 2016 to early 2017, Plaintiff’s supervisors asked him

Appendix 24
at various times about the status of his restrictions and
whether they had been reviewed by a physician. (Id.,
at 98, 201-02, 203, 212-15, 220-21, 288). According to
Plaintiff, his supervisors repeatedly pressured him to
arrange for the removal of his work restrictions in order to
keep his job, and this pressure amounted to harassment.
(Id., at 125-26). Plaintiff contends the harassment was
triggered by his earlier request to transfer to Material
Handling, which, according to Plaintiff, would have
“bumped out” relatives of Nissan’s “managers and HR
people.” (Id., at 231-24, 245, 313). In January 2017,
Plaintiff’s physician revised his work restrictions and
approved him for a full four-job rotation. (Id., at 13637; Doc. No. 25-4, at 11; Doc. No. 31-5, at 4). Plaintiff
continues to work within his restrictions, currently
performing a three-job rotation on the Door Line.
(Plaintiff’s Response to Facts ¶¶ 1, 2, 25-26; Plaintiff’s
Deposition, at 128-29, 137).
III. Analysis
A.

The Standards Governing Motions For
Summary Judgment

Summary judgment should be granted "if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law." Fed. R. Civ. P. 56(a). The Supreme
Court has construed Rule 56 to “mandate[] the entry
of summary judgment, after adequate time for discovery
and upon motion, against a party who fails to make a
showing sufficient to establish the existence of an element
essential to that party’s case, and on which that party will
bear the burden of proof at trial.” Celotex Corp. v. Catrett,
477 U.S. 317, 322, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986).
In considering a motion for summary judgment,
a court must draw all reasonable inferences in favor of
the nonmoving party. See, e.g., Matsushita Elec. Indus.

Appendix 25

Co., Ltd. v. Zenith Radio Corp.,475 U.S. 574, 587-88, 106
S.Ct. 1348, 89 L.Ed.2d 538 (1986); Shreve v. Franklin
County, Ohio, 743 F.3d 126, 132 (6th Cir. 2014). The court
does not, however, make credibility determinations, weigh
the evidence, or determine the truth of the matter.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255, 106
S.Ct. 2505, 91 L.Ed.2d 202 (1986).
In order to defeat the motion, the nonmoving
party must provide evidence, beyond the pleadings,
upon which a reasonable jury could return a verdict
in its favor. Celotex Corp., 477 U.S. at 324; Shreve, 743
F.3d at 132. Ultimately, the court is to determine “whether
the evidence presents a sufficient disagreement to
require submission to a jury or whether it is so onesided that one party must prevail as a matter of law.”
Anderson, 477 U.S. at 251-52.
B.

Denial of Transfer to Material Handling

Plaintiff claims Defendant violated the ADA when
it denied his request to transfer from the Door Line to a
job in Material Handling. The ADA prohibits
discrimination against “a qualified individual on the
basis of disability” with regard to hiring, compensation,
discharge, and other terms, conditions, and privileges
of employment. 42 U.S.C. § 12112(a). A “qualified
individual” is “an individual who, with or without
reasonable accommodation, can perform the essential
functions of the employment position that such individual
holds or desires.” 42 U.S.C. § 12111(8). In order to
establish a prima facie case of discrimination under the
ADA, a plaintiff must show: (1) he is disabled; (2) he is
otherwise qualified to perform the essential functions of a
position, with or without accommodation; and (3) he
suffered an adverse employment action because of his
disability. Demyanovich v. Cadon Plating & Coatings,
L.L.C., 747 F.3d 419, 433 (6th Cir. 2014); Perry v.

Appendix 26

American Red Cross Blood Services, 651 Fed. Appx.
317 (6th Cir. 2016).
Defendant argues Plaintiff cannot establish the
first and third elements. Regarding the fourth element,
Defendant argues denial of Plaintiff’s request for the
Material Handling job did not constitute an “adverse
employment action” because transfer to that job would
have been a lateral transfer rather than a promotion. An
“adverse employment action” is one that results in “a
materially adverse change in the terms and conditions
of [a plaintiff’s] employment.” Spees v. James Marine,
Inc., 617 F.3d 380, 391 (6th Cir. 2010). Adverse
employment
actions
“are typically marked by a
‘significant change in employment status,’ including
‘hiring, firing, failing to promote, reassignment with
significantly different responsibilities, or a decision
causing significant change in benefits.’” Id. With regard
to denial of requests to transfer, a plaintiff generally
must show the transfer he was denied involved a
change in wages or salary, a less distinguished title, a
material loss of benefits, or significantly diminished
material responsibilities. Momah v. Dominguez, 230
Fed. Appx. 114, 123 (6th Cir. 2007). “[A] purely lateral
transfer or denial of the same, which by definition
results in no decrease in title, pay or benefits, is not
an adverse employment for discrimination purposes.”
Id. The plaintiff’s “‘subjective impressions as to the
desirability of one position over another are not
relevant’ in determining whether the employee suffered
an adverse employment action.” Id. (quoting Policastro v.
Northwest Airlines, Inc., 297 F.3d 535, 539 (6th Cir.
2002)).
Plaintiff admits the Material Handling job had the
same rate of pay, but argues it was not a lateral transfer
because: (1) job openings in Material Handling are rare
and require a level of seniority; and (2) Material
Handling jobs, in Plaintiff’s opinion, involve less stress

Appendix 27
on one’s body. (Plaintiff’s Response to Facts ¶ 10). The
scarcity of job openings, and Plaintiff’s subjective
impressions about the desirability of the job, however,
are insufficient to show a transfer from the Door Line
to Material Handling was other than a purely lateral
transfer. Plaintiff has not alleged or presented any
evidence indicating the Material Handling job involved a
change in pay or benefits, or other change usually
associated with a promotion.1 Therefore, Plaintiff has
failed to make a showing sufficient to withstand summary
judgment as to this essential elemenlaim.2 Accordingly,
Defendant is entitled to summary judgment on Plaintiff’s
failure to promote claim.
Plaintiff also appears to argue Nissan failed to
“accommodate” his disability through a transfer to the
Material Handling job. Discrimination, under the ADA,
includes the failure to make “reasonable accommodations
to the known physical or mental limitations of an
otherwise qualified individual with a disability . . . unless
. . . the accommodation would impose an undue hardship
on the operation of the business of the covered entity.” 42
U.S.C. § 12112(b)(5)(A). A “reasonable accommodation”
includes “job restructuring, part-time or modified work
schedules, reassignment to a vacant position, acquisition
or modification of equipment or devices . . . [or]other
Plaintiff cites Deleon v. Kalamazoo County Road
Com’n, 739 F.3d 914, 919 (6th Cir. 2014)for the proposition that
1

a plaintiff may show a transfer constitutes an “adverse
employment action” even in the absence of a demotion or pay
decrease if the particular circumstances of the new job rise to
some level of “objective intolerability.” This proposition does
not support Plaintiff’s claim, however, because he has not
suggested his position on the Door Line was objectively
intolerable.
Consequently, the Court need not consider whether Plaintiff
meets the first element.
2

Appendix 28
similar accommodations for individuals with disabilities.”
42 U.S.C. § 12111(9).
The plaintiff bears the initial burden of
proposing an accommodation and showing it is
objectively reasonable. Talley v. Family Dollar Stores
of Ohio, Inc., 542 F.3d 1099, 1108 (6th Cir. 2008). The
employer then bears the burden of persuasion to show
the accommodation would impose an undue hardship.
Id. An employee “cannot force her employer to provide
a specific accommodation if the employer offers another
reasonable accommodation.” Id. If an employee rejects a
reasonable accommodation, “the individual is no longer
a ‘qualified individual with a disability.’” Id.
Plaintiff admits the position he held at the
time he requested transfer was a reasonable
accommodation of his work restrictions by Nissan.
(Plaintiff’s Response to Facts, at ¶ 9;Complaint, at ¶
12 (Doc. No. 1)). Therefore, Plaintiff cannot show
Defendant
failed
to reasonably accommodate his
disability. As the Sixth Circuit has explained, Plaintiff
cannot insist on a specific accommodation – a job in
Material Handling – when his current job is itself a
reasonable accommodation of his disability. See, e.g.,
Hedrick v. W. Reserve Care Sys., 355 F.3d 444, 457 (6th
Cir. 2004) (“. . . an employee cannot make his employer
provide a specific accommodation if another reasonable
accommodation is instead provided.”); Bush v. Compass
Grp. USA, Inc., 683 Fed. Appx. 440, 450 (6th Cir.
2017).
Thus, Defendant is entitled to summary
judgment on Plaintiff’s failure to accommodate claim.
C.

Reevaluation of Job Duties

Plaintiff alleges that, for several months, Nissan
engaged in a campaign of harassment, creating a hostile
work environment, by pressuring him to eliminate his
work restrictions in order to keep his job. To establish a

Appendix 29
claim of hostile work environment based on disability, a
plaintiff must demonstrate: (1) he was disabled; (2) he
was subject to unwelcome harassment; (3) the
harassment was based on his disability; (4) the
harassment unreasonably interfered with his work
performance; and (5) the defendant either knew or should
have known about the harassment and failed to take
corrective measures. Trepka v. Bd. of Educ., 28 Fed.
Appx. 455, 461 (6th Cir. 2002). To establish a hostile
work environment, the plaintiff “must show conduct
that is ‘sufficiently severe or pervasive to alter the
conditions of the victim’s employment and [to]create an
abusive working environment.’” Id. (quoting Harris v.
Forklift Systems, Inc., 510 U.S. 17, 21, 114 S. Ct. 367,
126 L.Ed.2d 295 (1993)). “The standard has both an
objective and a subjective component: the environment
must be one ‘that a reasonable person would find hostile or
abusive,’ and the plaintiff must ‘subjectively perceive the
environment to be abusive.’” Goller v. Ohio Dep't of Rehab.
& Correction, 285 Fed. Appx. 250, 259 (6th Cir. 2008)
(quoting Harris, 510 U.S. at 21–22)). Conduct that is
“merely offensive” will not suffice to support a hostile work
environment claim. Id.
Defendant argues it did not “harass” Plaintiff by
requesting he update his 2005 work restrictions to
determine whether he could continue performing his
current job, which was transitioning from a two-job
rotation to a four-job rotation. In that regard, the ADA
permits an employer to “make inquiries into the ability of
an employee to perform job-related functions.” 42 U.S.C. §
12112(d)(4)(B); see also 42 U.S.C. § 12112(d)(4)(A) (an
employer “shall not require a medical examination and
shall not make inquiries of an employee as to whether such
employee is an individual with a disability or as to the
nature or severity of the disability, unless such
examination or inquiry is shown to be job-related and
consistent with business necessity.”); Templeton v.
Neodata Services, Inc., 162 F.3d 617, 619 (10th Cir. 1998)

Appendix 30
(employer’s request for updated medical information was
reasonable in light of doctor’s earlier letter questioning
employee’s ability to return to work). Indeed, an
employer is required to engage in an “interactive
process” with an employee to identify the precise
limitations resulting from a disability and potential
reasonable accommodations that could overcome those
limitations. See, e.g., Rorrer v. City of Stow, 743 F.3d 1025,
1040 (6th Cir. 2014). If this process fails to lead to a
reasonable
accommodation
of
the
employee’s
limitations, responsibility lies with the party that
caused the breakdown. Id.
To support his hostile work environment claim,
Plaintiff relies on his own testimony that his supervisors
“pressured” him to get his work restrictions changed
so he would be able to continue working. (Id., at 125-26,
152-53, 160, 183). Plaintiff testified he felt harassed
because his supervisors asked him once a week, and
sometimes more than once a week, over a three-to- four
month period, from October, 2016 to January, 2017, if he
had seen a physician to obtain a current assessment of
his work restrictions.
(Id.) In addition, Plaintiff
testified he felt he was being harassed because a
temporary supervisor “constantly” watched him perform
his work in January 2018. (Plaintiff’s Deposition, at 2527, 224-26)).3 Plaintiff also cites an exhibit containing
four emails exchanged by Senior Manager Marc
LaCroix with other employees relating to Plaintiff’s work
restrictions. (Plaintiff’s Exhibit Eight (Doc. No. 31-5, at 911)). The emails essentially document conversations with
Plaintiff regarding the need to review his current work
restrictions to determine whether he would be medically

Plaintiff also testified he was never written up or verbally
counseled or disciplined by this supervisor, and understood
that watching to see if technicians perform their jobs correctly
is part of a supervisor’s job. (Id.).
3

Appendix 31
cleared to perform his current job or other jobs in the
plant.4 (Id.)
The first email in the exhibit is dated November 2, 2016, and
was sent to Trish Howerton at Premise Health, and Debbie
Nelson, Manager of Medical Management at Nissan. In it, Mr.
LaCroix states: Adam Booth met with me today and informed
me that his prior workman’s comp doctor is no longer in
practice. Due to his permanent restrictions not clearing him to
run any jobs in the plant he was advised of the steps he would
need to take in order to possibly improve his current standings
in regards to his restrictions. He was advised to visit Medical
and speak with a case manager about his medical records and
setting up and [sic] appointment with his attending physician.
With his original Dr. no longer in practice how do we proceed
with getting him set up to be seen by another Dr. and
evaluated?
(Doc. No. 31-5, at 11). The second email is Ms. Nelson’s
response to Mr. LaCroix, sent the same day:
It was my understanding he was informed that he could:
1. See his PCP, under group health, if PCP was willing;
2. Ask Dr. Hazlewood, who is treating him for an open WC
case, if he will see him, under his group health plan, to
review/address the permanent restrictions. Additionally I
understand he was told he should come to medical, sign a
waiver/consent form, and request his medical records to take to
whatever MD apt. he might schedule.
4

(Id., at 10).
The next email in the exhibit is from Mr. LaCroix to
Debbie Nelson, Gina Baio, Bill Slagle, and Rufus McAdoo,
all Nissan employees, and is dated January 27, 2017, over
two months later. In the email, Mr. LaCroix states:
See the attached email with the most recent details for
Adam’s medical review status. We need to discuss some
deadlines that he has to meet as he is continuing to drag out
his requirement to meet with the Dr. We have continued
to let him work in his current pod, but we can’t continue to do
that if he doesn’t get his Perm Restrictions modified to clear
him for duty. (Id., at 9). The final email in the exhibit is a
response from Mr. Slagle to Mr. LaCroix sent later that day:
Before the Holidays when we met with him it was clear that we
were giving him ample time to make an appointment. He

Appendix 32
Assuming Plaintiff could prove the other
elements required to establish a claim for hostile work
environment based on disability, Plaintiff’s allegations of
harassment fall far short of satisfying the second and
fourth elements. The conduct Plaintiff cites to support his
claim was not objectively harassing or even unreasonable.
Rather, contrary to Plaintiff’s characterization of the
evidence, the documents show a reasonable attempt by
Nissan to ensure Plaintiff would retain his employment
after a change in the production process in the zone where
he worked.5 During the three-to-four month period in
which Plaintiff’s supervisors waited for him to obtain
updated restrictions,6 there is no evidence Nissan
eliminated his current position, or attempted to move
him to a more difficult position. There is also nothing in
the emails cited by Plaintiff
(assuming
their
admissibility) suggesting his supervisors harassed him
during this period. As for Plaintiff’s complaints of being
constantly watched by a temporary supervisor at a later
time, Plaintiff has not shown the behavior went
beyond that reasonably expected of a supervisor.
Plaintiff has pointed to no evidence that he was
ridiculed, insulted, intimidated, or abused because of
did that and had an evaluation with Hazelwood on 12/29.
This follow-up appointment with Hazelwood on 1/31 in my
opinion, is still on track with what we asked him to do. I
think he needs to be refreshed on the urgency and need for
the medical clinic to assess the findings of the doctor and make
a determination regarding his current restrictions. Based on
his wife’s conflicting appointment on this same day, I
think it is appropriate to give him 2 weeks from Monday
1/30 to reschedule the 1/31 appointment with Hazelwood.
(Id.)
5
Plaintiff has cited no authority suggesting Nissan was
prohibited by the ADA from changing its production processes.
Nor has Plaintiff cited any evidence supporting his
suggestion that Nissan’s stated intention to change its
production process was a ruse to “push out the physically
disabled.” (Doc. No. 31, at 9).

Appendix 33
his disability, or otherwise. Even if the Court were to
assume Nissan’s conduct was intimidating, however, it
does not rise to the level of sufficient severity to have
altered Plaintiff’s working conditions, as is required to
establish a hostile work environment claim. See, e.g.,
Trepka, 28 Fed. Appx. at 461 (supervisor’s contentious
oral confrontation involving yelling and stern words
about plaintiff’s ability to walk and expressing
skepticism about his condition did not create a hostile
work environment); Goller, 285 Fed. Appx. at 259
(supervisor’s derogatory name calling that did not
interfere with her work performance held to be insufficient
to establish hostile work environment). Therefore,
Plaintiff has failed to make a showing sufficient to
withstand summary judgment as to two of the essential
elements of his hostile work environment claim.
Accordingly, Defendant is entitled to summary
judgment on this claim.
D.

Workers’ Compensation Retaliation

Plaintiff
also
claims
Defendant
violated
Tennessee law by retaliating against him for filing a
workers’ compensation claim in 2004. In order to
establish a prima facie case for workers’ compensation
retaliation, a plaintiff must show: (1) he was an
employee of the employer at the time of the injury; (2) the
employee filed a workers’ compensation claim against the
employer; (3) the employer terminated the employee;
and (4) the workers’ compensation claim played a
substantial role in the employer’s decision to terminate the
employee. Alexander v. Kellogg USA, Inc., 674 Fed.
Appx. 496, 501 (6th Cir. 2017) (citing Yardley v. Hosp.
Housekeeping Sys., LLC, 470 S.W.3d 800, 805 (Tenn.
2015)).
Defendant argues Plaintiff cannot establish the
third element – termination. Plaintiff admits he has
not been terminated and is working full days at Nissan

Appendix 34
within his restrictions. (Plaintiff’s Response to Facts ¶
36). Plaintiff has not cited any authority extending a
workers’ compensation retaliation claim to conduct
short of termination. Accordingly, Defendant is entitled
to summary judgment on Plaintiff’s workers’ compensation
retaliation claim.7
Conclusion
For the reasons discussed above, the Court grants
summary judgment to Defendant on all claims, and this
action is dismissed.
It is so ORDERED
s/William L. Campbell, Jr.
WILLIAM L. CAMPBELL, JR.
UNITED STATES DISTRICT JUDGE

Given the Court’s conclusion that Plaintiff has failed to
make a sufficient showing to withstand summary judgment
on his claims, it is unnecessary to consider Defendant’s
arguments regarding the statute of limitations and other
defenses to those claims.
7

Appendix 35

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 1 of 19 PageID #: 478

Appendix 36
Appendix 36

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 2 of 19 PageID #: 479

Appendix 37

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 4 of 19 PageID #: 481

Appendix 38

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 5 of 19 PageID #: 482

Appendix 39

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 6 of 19 PageID #: 483

Appendix 40

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 9 of 19 PageID #: 486

APPENDIX 41

Case 3:17-cv-00755 Document 31-5 Filed 04/03/18 Page 19 of 19 PageID #: 496

